  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




     BLUE CROSS BLUE SHIELD
  ASSOCIATION UNDERSTATED THE
MEDICARE SEGMENT PENSION ASSETS
FOR THE PERIOD OF JANUARY 1, 1997,
        TO JANUARY 1, 2011



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Patrick J. Cogley
                                                 Regional Inspector General

                                                        February 2013
                                                        A-07-13-00410
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield Association (the Association) administers Medicare Part A operations
under cost reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation language requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the Medicare segment. Additionally,
the contracts require Medicare segment assets to be updated for each year after the initial
allocation in accordance with CAS 412 and 413.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation report at the Association (A-07-98-02527, issued
March 10, 1999), which brought the Medicare segment pension assets to January 1, 1997. We
recommended that the Association decrease its Medicare segment pension assets by $407,043
and, as a result, recognize $7,300,353 as the Medicare segment pension assets as of
January 1, 1997.

OBJECTIVES

Our objectives were to determine whether the Association complied with Federal regulations and
the Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation, and

   •   updating the Medicare segment’s pension assets from January 1, 1997, to
       January 1, 2011.

SUMMARY OF FINDINGS

The Association implemented the prior audit recommendation to recognize $7,300,353 as the
Medicare segment pension assets as of January 1, 1997. When updating the Medicare segment’s
pension assets, the Association identified Medicare segment pension assets of $5,085,454;
however, we determined that the Medicare segment pension assets were $5,419,935 as of
January 1, 2011. The difference, $334,481, was an understatement of Medicare segment pension
assets. The Association understated the Medicare segment assets because it did not have
controls to ensure that it calculated those assets in accordance with Federal requirements and the


                                                 i
Medicare contracts’ pension segmentation language when updating the Medicare segment
pension assets from January 1, 1997, to January 1, 2011.

RECOMMENDATIONS

We recommend that the Association:

   •   increase the Medicare segment pension assets as of January 1, 2011, by $334,481, and

   •   establish controls to ensure compliance with Federal regulations and the Medicare
       contracts’ pension segmentation requirements when allocating benefit payments,
       participant transfers, and investment earnings and expenses.

AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendations and
described corrective actions that it planned to implement.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Blue Cross Blue Shield Association and Medicare ................................................ 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Prior Pension Segmentation Audit Report .............................................................. 1

          OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 2
               Objectives ............................................................................................................... 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          PRIOR AUDIT RECOMMENDATION ............................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Benefit Payments Overstated .................................................................................. 5
              Net Transfers Understated ...................................................................................... 5
              Earnings, Net Expenses Understated ...................................................................... 5

          RECOMMENDATIONS .................................................................................................... 6

          AUDITEE COMMENTS.................................................................................................... 6

APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS
       FOR BLUE CROSS BLUE SHIELD ASSOCIATION
       FOR THE PERIOD JANUARY 1, 1997, TO JANUARY 1, 2011

    B: AUDITEE COMMENTS




                                                                     iii
              Glossary of Abbreviations and Acronyms

Association   Blue Cross Blue Shield Association
CAS           Cost Accounting Standards
CMS           Centers for Medicare & Medicaid Services
FAR           Federal Acquisition Regulation
WAV           weighted average value




                              iv
                                       INTRODUCTION

BACKGROUND

Blue Cross Blue Shield Association and Medicare

Blue Cross Blue Shield Association (the Association) administers Medicare Part A under cost
reimbursement contracts with the Centers for Medicare & Medicaid Services (CMS).

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the Medicare segment. The contracts
require Medicare segment assets to be updated for each year after the initial allocation in
accordance with CAS 412 and 413. In claiming costs, contractors must follow cost
reimbursement principles contained in the FAR, CAS, and the Medicare contracts.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation report at the Association (A-07-98-02527, issued
March 10, 1999), which brought the Medicare segment pension assets to January 1, 1997. We
recommended that the Association decrease its Medicare segment pension assets by $407,043
and, as a result, recognize $7,300,353 as the Medicare segment pension assets as of
January 1, 1997.




                                                 1
OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the Association complied with Federal requirements
and the Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation, and

   •    updating the Medicare segment’s pension assets from January 1, 1997, to
        January 1, 2011.

Scope

We reviewed the Association’s identification of its Medicare segment and its update of Medicare
segment assets from January 1, 1997, to January 1, 2011.

Achieving our objectives did not require us to review the Association’s overall internal control
structure. We reviewed controls relating to the identification of the Medicare segment and the
update of the Medicare segment’s assets to ensure adherence to the Medicare contracts, CAS
412, and CAS 413.

We performed fieldwork at the Association’s office in Chicago, Illinois, during April and May
2012.

Methodology

To accomplish our objectives, we took the following steps:

   •     We reviewed the portions of the FAR, CAS, and the Medicare contracts applicable to
         this audit.

   •     We reviewed the annual actuarial valuation reports prepared by the Association’s
         actuarial consulting firms, which included the pension plan’s assets, liabilities, normal
         costs, contributions, benefit payments, investment earnings, and administrative
         expenses. We used this information to calculate the Medicare segment assets.

   •     We obtained and reviewed the pension plan documents and Department of
         Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
         assets.

   •     We interviewed Association staff responsible for identifying the Medicare segment to
         determine whether the segment was properly identified in accordance with the Medicare
         contracts.




                                                 2
   •     We reviewed the Association’s accounting records to verify the segment identification
         and benefit payments made to the Medicare segment.

   •     We reviewed the prior segmentation audit performed at the Association
         (A-07-98-02527) to determine the beginning market value of assets.

   •     We provided the CMS Office of the Actuary with the actuarial information necessary
         for it to calculate the Medicare segment pension assets from January 1, 1997, to
         January 1, 2011.

   •     We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of the Association’s pension costs
claimed for Medicare reimbursement (A-07-13-00411) and used the information obtained during
that audit in this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDINGS AND RECOMMENDATIONS

The Association implemented the prior audit recommendation to recognize $7,300,353 as the
Medicare segment pension assets as of January 1, 1997. When updating the Medicare segment’s
pension assets, the Association identified Medicare segment pension assets of $5,085,454;
however, we determined that the Medicare segment pension assets were $5,419,935 as of
January 1, 2011. The difference, $334,481, was an understatement of Medicare segment pension
assets. The Association understated the Medicare segment assets because it did not have
controls to ensure that it calculated those assets in accordance with Federal requirements and the
Medicare contracts’ pension segmentation language when updating the Medicare segment
pension assets from January 1, 1997, to January 1, 2011.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 1997, to
January 1, 2011, as determined during our audit. Table 1 on the following page summarizes the
audit adjustments required to update Medicare segment pension assets in accordance with
Federal requirements.




                                                3
                      Table 1: Summary of Audit Adjustments
                                                Per           Per
                                               Audit      Association                     Difference
Prior Audit Recommendation                    $7,300,353    $7,300,353                            $0

Update of Medicare Segment Assets
Benefit Payments                                         (3,383,240)       (3,929,224)       545,984
Net Transfers                                            (4,553,905)       (4,264,004)     (289,901)
Earnings, Net Expenses                                     6,056,727         5,978,329        78,398
Understatement of Medicare Segment Assets                                                   $334,481

PRIOR AUDIT RECOMMENDATION

The Association implemented the prior audit recommendation (A-07-98-02527) which
recommended that the Association decrease the Medicare segment pension assets by $407,043
and recognize $7,300,353 of Medicare segment pension assets as of January 1, 1997.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts identify a Medicare segment as:

       … any organizational component of the contractor, such as a division,
       department, or other similar subdivision, having a significant degree of
       responsibility and accountability for the Medicare contract/agreement, in which:

           1. The majority of the salary dollars is allocated to the Medicare
              agreement/contract; or,

           2. Less than a majority of the salary dollars are charged to the Medicare
              agreement/contract, and these salary dollars represent 40% or more of the
              total salary dollars charged to the Medicare agreement/contract.

Furthermore, the Medicare contracts state that “… the pension assets allocated to each Medicare
Segment shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires
that the asset base be adjusted by contributions, permitted unfunded accruals, income, benefit
payments, and expenses. For plan years beginning after March 30, 1995, the CAS requires
investment income and expenses to be allocated among segments based on the ratio of the
segment’s weighted average value (WAV) of assets to Total Company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities.


                                                 4
Benefit Payments Overstated

The Association overstated benefit payments by $545,984 because of a difference in the
identification of one Medicare segment participant for 2006. Therefore, the Medicare segment
pension assets were understated by $545,984.

Net Transfers Understated

The Association understated net transfers out of the Medicare segment by $289,901. The
understatement occurred primarily because the Association incorrectly identified participants
who transferred in and out of the Medicare segment during the audit period. This understatement
of the net transfer adjustment resulted in an overstatement of the Medicare segment assets by
$289,901.

Earnings, Net Expenses Understated

The Association understated investment earnings, less administrative expenses, by $78,398 for
the Medicare segment, because it (a) used an incorrect methodology to allocate investment
earnings, less administrative expenses to the Medicare segment during 1997 through 2001, and
(b) used incorrect benefit payment and net transfers amounts (as discussed above) to develop the
Medicare segment pension asset base. In our audited update, we allocated earnings, net expenses
based on the applicable CAS requirements.

Table 2 provides information on our calculations of earnings, net expenses, the Association’s
calculations, and the difference between the two on a year-by-year basis.

                            Table 2: Earnings, Net Expenses
                               for the Medicare Segment
                            Per Audit Per Association Difference
                      1997 $1,513,330        $1,491,346     $21,984
                      1998   1,332,610        1,328,733       3,877
                      1999   1,112,264        1,059,949      52,315
                      2000   (323,076)        (327,321)       4,245
                      2001   (365,365)        (347,129)    (18,236)
                      2002   (549,067)        (530,242)    (18,825)
                      2003   1,090,741        1,059,840      30,901
                      2004     665,122          646,523      18,599
                      2005     539,972          524,686      15,286
                      2006     931,339          904,976      26,363
                      2007     617,011          614,303       2,708
                      2008 (2,157,816)      (2,094,304)    (63,512)
                      2009     865,839          900,922    (35,083)
                      2010     783,823          746,047      37,776
                      Total $6,056,727       $5,978,329     $78,398




                                                5
RECOMMENDATIONS:

We recommend that the Association:

   •   increase the Medicare segment pension assets as of January 1, 2011, by $334,481, and

   •   establish controls to ensure compliance with Federal regulations and the Medicare
       contracts’ pension segmentation requirements when allocating benefit payments,
       participant transfers, and investment earnings and expenses.

AUDITEE COMMENTS

In written comments on our draft report, the Association accepted our recommendations and
described corrective actions that it planned to implement.

The Association’s comments are included in their entirety as Appendix B.




                                               6
APPENDIXES
                                                                               Page 1 of 5

         APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS

                  FOR BLUE CROSS BLUE SHIELD ASSOCIATION

              FOR THE PERIOD JANUARY 1, 1997, TO JANUARY 1, 2011


                                                                           Medicare
           Description                Total Company     “Other” Segment    Segment

Assets January 1, 1997           1/      $88,703,613        $81,403,260      $7,300,353

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                         2/       18,550,570         17,001,344      1,549,226
Benefit Payments                 3/       (2,577,022)        (2,577,022)             0
Expenses                         4/         (429,827)          (393,931)       (35,896)
Transfers                        5/                0             63,321        (63,321)

Assets January 1, 1998                  $104,247,334        $95,496,972     $8,750,362

Transferred Prepayment Credits                     0                  0               0
Contributions                                      0                  0               0
Earnings                                  16,625,515         15,251,083       1,374,432
Benefit Payments                          (3,544,532)        (2,987,044)       (557,488)
Expenses                                    (505,896)          (464,074)        (41,822)
Transfers                                          0          2,672,690      (2,672,690)

Assets January 1, 1999                  $116,822,421       $109,969,627     $6,852,794

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                                  19,014,418         17,871,461      1,142,957
Benefit Payments                          (5,636,361)        (5,636,361)             0
Expenses                                    (510,609)          (479,916)       (30,693)
Transfers                                          0            601,728       (601,728)

Assets January 1, 2000                  $129,689,869       $122,326,539     $7,363,330

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                                  (5,272,141)        (4,985,243)      (286,898)
Benefit Payments                          (5,461,147)        (4,552,169)      (908,978)
Expenses                                    (664,826)          (628,648)       (36,178)
Transfers                                          0                  0              0

Assets January 1, 2001                  $118,291,755       $112,160,479     $6,131,276
                                                                               Page 2 of 5



                                                                           Medicare
           Description                Total Company     “Other” Segment    Segment

Assets January 1, 2001                  $118,291,755       $112,160,479      $6,131,276

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                                  (6,347,750)        (6,013,714)      (334,036)
Benefit Payments                          (3,556,154)        (3,556,154)             0
Expenses                                    (595,344)          (564,015)       (31,329)
Transfers                                          0            (35,319)        35,319

Assets January 1, 2002                  $107,792,507       $101,991,277     $5,801,230

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                                  (9,452,205)        (8,928,558)      (523,647)
Benefit Payments                          (6,152,320)        (6,152,320)             0
Expenses                                    (458,841)          (433,421)       (25,420)
Transfers                                          0                228           (228)

Assets January 1, 2003                   $91,729,141         86,477,206      $5,251,935

Transferred Prepayment Credits                     0                  0              0
Contributions                                      0                  0              0
Earnings                                  18,923,758         17,806,729      1,117,029
Benefit Payments                          (5,510,566)        (5,510,566)             0
Expenses                                    (445,345)          (419,057)       (26,288)
Transfers                                          0           (170,481)       170,481

Assets January 1, 2004                  $104,696,988        $98,183,831     $6,513,157

Transferred Prepayment Credits                     0                  0              0
Contributions                    6/        5,000,000          5,000,000              0
Earnings                                  11,098,489         10,404,652        693,837
Benefit Payments                          (3,798,373)        (3,625,136)      (173,237)
Expenses                                    (459,326)          (430,611)       (28,715)
Transfers                                          0                  0              0

Assets January 1, 2005                  $116,537,778       $109,532,736     $7,005,042
                                                                          Page 3 of 5



                                                                      Medicare
           Description           Total Company     “Other” Segment    Segment

Assets January 1, 2005             $116,537,778       $109,532,736      $7,005,042

Transferred Prepayment Credits                0                  0              0
Contributions                         5,400,000          5,400,000              0
Earnings                              9,235,702          8,667,750        567,952
Benefit Payments                     (5,251,695)        (5,251,695)             0
Expenses                               (454,998)          (427,018)       (27,980)
Transfers                                     0                  0              0

Assets January 1, 2006             $125,466,787       $117,921,773     $7,545,014

Transferred Prepayment Credits                0                  0              0
Contributions                         3,200,000          3,200,000              0
Earnings                             15,590,779         14,629,462        961,317
Benefit Payments                     (6,201,425)        (6,201,425)             0
Expenses                               (486,180)          (456,202)       (29,978)
Transfers                                     0                  0              0

Assets January 1, 2007             $137,569,961        129,093,608      $8,476,353

Transferred Prepayment Credits                0                  0              0
Contributions                        12,000,000         12,000,000              0
Earnings                             10,303,757          9,648,093        655,664
Benefit Payments                     (8,728,359)        (8,728,359)             0
Expenses                               (607,426)          (568,773)       (38,653)
Transfers                                     0            432,190       (432,190)

Assets January 1, 2008             $150,537,933       $141,876,759     $8,661,174

Transferred Prepayment Credits                0                  0               0
Contributions                        20,000,000         20,000,000               0
Earnings                            (37,148,297)       (35,019,571)     (2,128,726)
Benefit Payments                    (13,336,939)       (12,503,024)       (833,915)
Expenses                               (507,648)          (478,558)        (29,090)
Transfers                                     0             69,601         (69,601)

Assets January 1, 2009             $119,545,049       $113,945,207     $5,599,842
                                                                                                         Page 4 of 5



                                                                                                   Medicare
               Description                        Total Company         “Other” Segment            Segment

   Assets January 1, 2009                            $119,545,049           $113,945,207              $5,599,842

   Transferred Prepayment Credits                               0                       0                      0
   Contributions                                       20,000,000              20,000,000                      0
   Earnings                                            18,206,597              17,323,360                883,237
   Benefit Payments                                    (8,225,572)             (8,225,572)                     0
   Expenses                                              (358,624)               (341,226)               (17,398)
   Transfers                                                    0                (145,713)               145,713

   Assets January 1, 2010                            $149,167,450           $142,556,056              $6,611,394

   Transferred Prepayment Credits                               0                       0                      0
   Contributions                                       14,000,000              14,000,000                      0
   Earnings                                            18,940,509              18,136,649                803,860
   Benefit Payments                                    (8,212,593)             (7,302,971)              (909,622)
   Expenses                                              (472,119)               (452,082)               (20,037)
   Transfers                                                    0               1,065,660             (1,065,660)

   Assets January 1, 2011                            $173,423,247           $168,003,312              $5,419,935
   Per the Association                     7/        $173,423,247            168,337,793              $5,085,454
   Asset Variance                          8/                  $0              ($334,481)               $334,481




ENDNOTES

 1/ We determined the Medicare segment pension assets as of January 1, 1997, based on our prior segmentation
    audit of Blue Cross Blue Shield Association (the Association) (A-07-98-02527). The amounts shown for
    the “Other” segment represent the difference between the Total Company and the Medicare segment. All
    pension assets are shown at market value.

 2/ We obtained investment earnings from the actuarial valuation reports. We allocated investment earnings
    based on the ratio of the segments’ weighted average value (WAV) of assets to Total Company WAV of
    assets as required by the Cost Accounting Standards (CAS).

 3/ We based the Medicare segment’s benefit payments on actual payments to Medicare retirees. We obtained
    the benefit payments from documents provided by the Association.

 4/ We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 5/ We identified participant transfers between segments by comparing valuation data files provided by the
    Association. Asset transfers were equal to the actuarial liability determined under the accrued benefit cost
    method in accordance with the CAS.
                                                                                                      Page 5 of 5



6/ We obtained Total Company contribution amounts from the actuarial valuation reports and Department of
   Labor/Internal Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare
   segment based on the ratio of the Medicare segment funding target divided by the Total Company funding
   target. Contributions in excess of the funding targets were treated as prepayment credits and accounted for
   in the “Other” segment until needed to fund pension costs in the future.

7/ We obtained total asset amounts as of January 1, 2011, from documents prepared by the Association’s
   actuarial consulting firms.

8/ The asset variance represents the difference between our calculation of Medicare segment pension assets
   and the Association’s calculation of the Medicare segment pension assets.
                        APPENDIX B: AUDITEE COMMENTS




                                                                                           BlueCross BlueShield
                                                                                           Association
                                                                                           An Association of Independent
                                                                                           Blue Cross and Blue Shield Plans
January 29, 2013
                                                                                           225 Nonh Michigan Avenue
Mr. Patrick J. Cogley                                                                      Chicago, Illinois 6060!-7680
Regional Inspector General                                                                 312.297.6000
                                                                                           Fax 312.297.6609
Office of Audit Services, Region VII                                                       www.BCilS.com
601 East tih Street, Room 0429
Kansas City, Missouri 64106

RE: Report Number A-07-13-00410

Dear Mr. Cogley:

In response to your letter dated January 3, 2013, regarding the Office of Inspector General (OIG), Office
of Audit Services draft audit report entitled "Blue Cross Blue Shield Association Understated the Medicare
Segment Pension Assets for the Period of January 1, 1997 to January 1, 2011, please be advised that
the Blue Cross and Blue Shield Association (Association) has accepted the OIG's audit recommentations
and will undertake the following steps to implement corrective action:

       •   Direct Association actuaries to increase understated Medicare segment pension assets by
           $334,481 as of January 1, 2011 .


    •      Enhance internal controls to ensure compliance with Federal regulations and the Medicare
           contracts' pension segmentation requirements when allocating benefit payments, participant
           transfers, and investment earnings and expenses. Enhanced controls will include inserting a step
           in the process to improve the accuracy of Medicare segment data sent to Association actuaries.
           This enhancement will involve an annual review of Medicare segment data by appropriate
           Association staff familiar with Medicare contract operations to assure Medicare segment
           employees are properly identified before data is sent to actuaries.



Sine       y,


  v
Jam Williamson
D' ctor, General Accounting
Corporate Finance

With attachment

Copies without attachment to:

Mitch Helfand, BCBSA                      Kevin Shanklin, BCBSA
Peter Kelly, BCBSA                        Jenenne Tam bke, DHHS OIG
Sharon Keyes, BCBSA                       Jeffrey Wilson, DHHS OIG
Ed Sawica, BCBSA
